No. 19-566
IN THE SUPREME COURT OF THE UNITED STATES
_________________
DEVAN PIERSON, PETITIONER
v.
UNITED STATES OF AMERICA
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the MEMORANDUM FOR THE UNITED STATES, via email and first-class mail, postage
prepaid, this 30th day of January, 2020.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 665_ words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct.
Executed on January 30, 2020.

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
January 30, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisor,
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

19-0566
PIERSON, DEVAN
USA

ZACHARY A. CIULLO
KIRKLAND & ELLIS LLP
300 N. LASALLE STREET
CHICAGO, IL 60654
ERIN E. MURPHY
KIRKLAND & ELLIS LLP
1301 PENNSYLVANIA AVE., NW
WASHINGTON, DC 20004
202-389-5000
ERIN.MURPHY@KIRKLAND.COM

